EXHIBIT#A
UNITED STATES OF AMERICA, Plaintiff - Appellee, v. MONTGOMERY CARL AKERS. Defendant Appellant.
UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT
807 Fed. Appx. 861; 2020 U.S. App. LEXIS 10526
No. 19-3254
April 3, 2020, Filed
Editorial Information: Prior History
{2020 U.S. App. LEXIS 1}(D.C. Nos. 2:04-CR-20089-KHV-1 & 2:09-CV-02206-KHV). (D. Kan.).United
States v. Akers, 2019 U.S. Dist. LEXIS 194828 (D. Kan., Nov. 8, 2019)
For United States of America, Plaintiff - Appellee: Carrie N. Capwell,
Office of the United States Attorney, District of Kansas, Kansas City, KS.
Montgomery Carl Akers. Defendant - Appellant, Pro se,
Marion, IL.
Judges: Before LUCERO, BACHARACH, and MORITZ, Circuit Judges.
Counsel

Opinion

{807 Fed. Appx. 862} ORDER DENYING CERTIFICATE OF APPEALABILITY*
Montgomery Carl Akers filed a collection of motions in the district court seeking to void the
judgment in his original 28 U.S.C. § 2255 proceedings, to amend his restitution order, and for various
other relief. The district court construed the motion to void the judgment as an unauthorized second
or successive motion to vacate his sentence under 28 U.S.C. § 2255, dismissed it for lack of
jurisdiction, and denied a certificate of appealability (COA). The court denied all other motions and
imposed sanctions for the filings it found frivolous. Appearing pro se,1 Akers seeks a COA to
challenge the district court's ruling on his motion to void the judgment and appeals several other
aspects of the district court's order. He also seeks leave to proceed in forma pauperis (IFP) on
appeal. Exercising jurisdiction under 28 U.S.C. § 1291, we deny the IFP motion, deny a COA and
dismiss{2020 U.S. App. LEXIS 2} the matter with respect to the motion to void the judgment, and
affirm in all other respects.
BACKGROUND
In 2006, while serving a 105-month sentence for bank fraud and other offenses, Akers pleaded guilty
to wire fraud, an offense he committed from prison, and the district court sentenced him to 327
months in prison. He appealed his sentence and we affirmed. United States v. Akers, 261 F. App'x
110, 116 (10th Cir. 2008) (unpublished).
Akers filed his first § 2255 motion in 2009. The district court denied it on the merits and denied a
COA. We denied his request for a COA and dismissed the appeal. We also denied his motion to
proceed in forma pauperis (IFP) on appeal because he failed to advance "a reasoned, nonfrivolous
argument on the law and facts to support the issues raised on appeal." .United States v. Akers, 384
F. App'x 758, 759 (10th Cir. 2010) (per curiam) (citing DeBardeleben v. Quinlan, 937 F.2d 502, 505
(10th Cir. 1991)).

CIRHOT
© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Since then, Akers has filed myriad unsuccessful motions and appeals in his criminal case attacking
his conviction and sentence, including second or successive § 2255 motions and other
post-judgment motions alleging, among other things, that the district court judge, prosecutor,
investigators, and others engaged in a widespread conspiracy to wrongfully charge and convict him;
ineffective assistance of {807 Fed. Appx. 863} counsel; judicial bias; fraud on the court; and{2020
U.S. App. LEXIS 3} lack of subject matter jurisdiction.2 In several pleadings, he also maintained that
prison officials had unconstitutionally denied him access to his money and interfered with his ability
to communicate with and retain private counsel, but the district court consistently rejected those
claims, explaining that claims regarding the prison's post-sentencing treatment of him were not
related to his criminal case and might be more properly raised in a civil suit. Some motions also
challenged the validity of and sought modification of his restitution order. In denying relief on those
claims, the district court held that it did not have authority to vacate the amount of restitution and that
Akers had not shown changed economic circumstances warranting a modification.
In March 2019, Akers filed the motions at issue here: (1) a motion to void the judgment in his original
habeas proceedings based on lack of subject matter jurisdiction; (2) a motion to amend the
restitution order; (3) a motion for appointment of the Federal Public Defender (FPD) to investigate a
potential Sixth Amendment claim involving recordings of attorney-client communications at
Leavenworth prison where he had been housed; and (4) a motion{2020 U.S. App. LEXIS 4} alleging
that prison officials were interfering with his ability to retain private counsel. Over the next several
months, he filed more pleadings, including an addendum to and a brief in support of the motion to
void the judgment, a motion for a status update, and a motion notifying the district court that he is
being denied the ability to retain and secure licensed counsel to represent him with the foregoing
motions.
For reasons discussed below, the district court denied all relief and, based on what it concluded were
frivolous and duplicative filings, imposed monetary sanctions and filing restrictions.
DISCUSSION
In his combined opening brief and COA application, Akers indicated that he is appealing "all rulings
of the district court." COA Appl. at 2, but he did not explain the basis for his appeal of some of the
district court's rulings. We deny a COA as to the district court's dismissal of the motion to void the
judgment and affirm the other parts of the district court’s order Akers challenged in his brief, for
which no COA is required.
1. Motion to Void Judgment
Akers first claims the district court erred by dismissing his motion to void the judgment and reopen
his initial § 2255 proceeding. He also claims{2020 U.S. App. LEXIS 5} the court abused its
discretion by imposing sanctions for that motion. We reject both arguments.
a. Dismissal of Motion for Lack of Jurisdiction
Akers characterized his motion to void the judgment as a Rule 60(b) motion, claiming, among other
things, that the court denied his first § 2255 motion based on inaccurate information and thus
violated his right to due process. But because the substance of the motion to void the judgment
challenged his conviction and sentence based on essentially the same arguments he had raised in
previous § 2255 motions, the district court concluded that it was yet another unauthorized second or
successive § 2255 motion and dismissed it for lack for jurisdiction. See Gonzalez v. Crosby, 545 U.S.
524, 530, 532, 125 S. Ct. 2641,162 L. Ed. 2d 480 (2005) {807 Fed. Appx. 864} (explaining that a
Rule 60(b) motion amounts to a second or successive petition for habeas relief if it either "seeks to

CIRHOT

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

add a new ground for relief" or "attacks the federal court’s previous resolution of a claim on the
merits,” and that a "claim" is "an asserted federal basis for relief from a state court's judgment of
conviction") (internal quotation marks omitted). The court also denied a COA.
To appeal the district court's dismissal of his petition, Akers must first obtain a COA. 28 U.S.C. §
2253(c)(1)(B). The district court's dismissal of his petition{2020 U.S. App. LEXIS 6} for a lack of
jurisdiction was a procedural ruling. See United States v. Harper, 545 F.3d 1230, 1233 (10th Cir.
2008) (per curiam). Therefore, we will grant Akers a COA only if he "shows, at least, that jurists of
reason would find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling." Slack v. McDaniel, 529 U.S. 473, 484, 120 S. Ct. 1595, 146 L. Ed. 2d
542 (2000) (internal quotation marks omitted). A prisoner may not file a second or successive § 2255
motion unless he first obtains an order from the circuit court authorizing the district court to consider
the motion. 28 U.S.C. § 2244(b)(3)(A); id. § 2255(h). Absent such authorization, a district court lacks
jurisdiction to address the merits of a second or successive § 2255 motion. In re Cline, 531 F.3d
1249, 1251 (10th Cir. 2008) (per curiam).
Rule 60(b) cannot be used to "circumvent[j AEDPA's requirement that a new claim be dismissed
unless it relies on either a new rule of constitutional law or newly discovered facts." Gonzalez, 545
U.S. at 531. "[A] 'true' 60(b) motion ... either (1) challenges only a procedural ruling of the habeas
court which precluded a merits determination of the habeas application; or (2) challenges a defect in
the integrity of the federal habeas proceeding ...." Spitznas v. Boone, 464 F.3d 1213, 1215-16
(10th Cir. 2006) (citation omitted). Regardless of how a movant characterizes(2020 U.S. App. LEXIS
7} a motion, it is treated as a habeas petition if it "in substance or effect asserts or reasserts a federal
basis for relief" from the underlying conviction. In re Lindsey, 582 F.3d 1173, 1175 (10th Cir. 2009)
(per curiam) (internal quotation marks omitted).
We agree with the district court's conclusion that Akers’ motion was a successive § 2255 motion, not
a true Rule 60(b) motion. The substance of the motion did not challenge a procedural ruling that
prevented the first habeas court from considering the merits of his claims, but instead sought
"vindication of a habeas claim by challenging the habeas court's previous ruling on the merits of [his]
claim" some ten years ago, Spitznas, 464 F.3d at 1216. Because we conclude that reasonable jurists
could not debate that the district court was correct in treating Akers' motion as an unauthorized
second or successive § 2255 petition, we deny a COA.
b. Sanctions Order
In 2013, Akers' repetitive filings prompted the district court to warn him that future frivolous filings in
his criminal proceedings would result in the imposition of a $500 sanction for every filing the district
court deemed to be frivolous and possible further filing restrictions. We upheld that warning on
appeal. United States v. Akers, 561 F. App'x 769, 771 (10th Cir. 2014). After Akers persisted in filing
frivolous documents, the district{2020 U.S. App. LEXIS 8} court imposed a $500 sanction in 2017. It
also warned him that if he continued to file frivolous documents, the court would impose greater
monetary sanctions on a progressive {807 Fed. Appx. 865} scale.3 Akers appealed the imposition of
the $500 sanction, but did not appeal the court's proposed progressive scale of monetary sanctions.
We affirmed the sanction and cautioned Akers that "future frivolous appeals may result in an order
requiring him to show cause to avoid appellate filing restrictions or sanctions." See United States v.
Akers, 740 F. App’x 633, 635 (10th Cir. 2018), cert, denied, 139 S. Ct. 1573, 203 L. Ed. 2d 747
(2019).
In this appeal, Akers contends that the district court erred in imposing sanctions for filing his Rule
60(b) motion because it was not frivolous, but he does not appeal the amount of the sanction

CIRHOT

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

imposed. We note that he does not need a COA to appeal the sanction order because the imposition
of sanctions is collateral to the merits of the underlying § 2255 motion and is thus not a final order
that disposes of the merits of a habeas corpus proceeding. See Harbison v. Bell, 556 U.S. 180, 183,
129 S. Ct. 1481, 173 L. Ed. 2d 347 (2009) (explaining that the COA requirement in § 2253(c)(1)(a)
applies to "final orders that dispose of the merits of a habeas corpus proceeding-a proceeding
challenging the lawfulness of the petitioner's detention."); see also Hickman v. Cameron, 531 F.
App'x 209, 211 (3d Cir. 2013) (per{2020 U.S. App. LEXIS 9} curiam) (holding that a COA is not
required to appeal filing restrictions issued in order denying Rule 60(b) motion that sought relief from
order denying habeas petition).
A document or argument generally is considered frivolous where it lacks an arguable basis either in
law or in fact. Neitzke v. Williams, 490 U.S. 319, 325, 109 S. Ct. 1827, 104 L. Ed. 2d 338 (1989)
(legal frivolousness includes both "inarguable legal conclusion^]" and "fanciful factual allegation[s]").
We review the district court's imposition of sanctions for frivolous filings for abuse of discretion.
Barrett v. Tallon, 30 F.3d 1296, 1301 (10th Cir .1994). Akers has previously raised the arguments he
raised in his Rule 60(b) motion numerous times and been told that they are without merit. He has
also been told that he must seek authorization before filing what is in effect a second or successive §
2255 motion. In light of his continued persistence despite previous court orders, we conclude that the
district court did not abuse its discretion in imposing sanctions for Akers' frivolous Rule 60(b) motion.
2. Motion to Amend Restitution
In his motion to amend restitution, Akers indicated that despite attacking the underlying judgment as
void, he wanted to pay the restitution order in full. He said he would be able to do so if prison officials
would stop interfering with his ability to{2020 U.S. App. LEXIS 10} communicate with financial •
advisors, preventing him from consummating the sale of his business concept for $5 billion, and
denying him access to $270 million accounts receivable in a payment database. Noting that Akers
"offered] no legitimate reason why he would seek to expedite [his payment of] restitution while
simultaneously arguing that the restitution judgment is invalid," R., Vol. 2 at 146, the court found
Akers' motion frivolous because his "[speculative business deals [and] potential 'receivables' do not
come close to satisfying [his] burden to show that [his] economic circumstances have changed
enough to warrant modification of his restitution (807 Fed. Appx. 866} obligation" under 18 U.S.C. §
3664(k). R., Vol. 2 at 145-46. This provision in the Mandatory Victims Restitution Act permits a court
to adjust a defendant's payment schedule upon a showing of a material change in economic
circumstances.
It is unclear from Akers' brief on appeal whether he is challenging only the district court's
frivolousness determination or whether he is also challenging the denial of the motion. Construing his
brief liberally, we assume he is challenging both. Like the order imposing sanctions for his frivolous
Rule 60(b) motion, Akers does{2020 U.S. App. LEXIS 11} not need a COA to appeal the district
court's order rejecting his claims regarding restitution, because those claims did not seek relief from
his conviction or sentence, so were not raised under § 2255. See Harbison, 555 U.S. at 183.
As for the merits, Akers was required to pay 10% of his monthly income toward restitution while he
was in prison. See R., Vol. 2 at 144. To have the order modified, he had to show a material change
in his economic circumstances. The district court properly concluded that his grandiose and
speculative assertions that he had the resources to pay the full restitution amount did not prove the
material change required to warrant a modification.
We find no abuse of discretion in the district court's conclusion that Akers' motion to amend
restitution was frivolous and its resultant imposition of sanctions.

CIRHOT
© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

■<

■;

■$

■

!

3. Motion Concerning Appointment of and Access to Counsel
Akers filed two motions concerning the appointment of and access to counsel. In one, he sought
relief from prison officials' alleged interference with his attempts to communicate with private counsel
(the "access-to-counsel motion"). The court denied the motion, concluding that Akers had no right to
counsel at this stage of the criminal{2020 U.S. App. LEXIS 12} proceeding and explaining, as Akers
had been told several times before, that claims for access to counsel at this stage of the proceedings
must be brought as conditions-of-confinement claims in a civil rights action, not in a habeas petition.
The court found that this motion was frivolous and sanctioned him for it.
In the second motion concerning counsel, Akers asked the court to appoint the FPD to investigate his
potential claims of illegal recording of his attorney-client communications pursuant to that court's
standing order directing the FPD to investigate potential improper-recording claims of inmates at
Leavenworth, where Akers had been housed (the "motion for appointment of FPD"). In denying this
motion, the court explained that the FPD had already been appointed to review potential claims.
Though Akers had not shown that any of the attorney-client communications he had while at the
prison had been recorded, the court did direct that a copy of the motion be sent to the FPD so it was
aware of this potential claim. The court further found, however, that Akers' allegations that the court
had conspired with the prosecutor to record his conversations and steal his mail were frivolous,{2020
U.S. App. LEXIS 13} and thus it sanctioned Akers for filing the motion.
On appeal, Akers does not take issue with the court's denial of the motion for appointment of the
FPD, but claims the court erred by denying the access-to-counsel motion and by imposing sanctions
for both motions. Again, because the underlying motions did not challenge the lawfulness of his
detention, he does not need a COA to appeal the district court's rulings. See Harbison, 556 U.S. at
183 (holding that a prisoner seeking to appeal a final order denying a motion to enlarge the authority <
of appointed counsel or denying the appointment of counsel does not need a COA to proceed).
{807 Fed. Appx. 867} Relying on United States v. Gonzalez-Lopez, 548 U.S. 140, 126 S. Ct. 2557,
165 L. Ed. 2d 409 (2006), and Mann v. Reynolds, 46 F.3d 1055 (10th Cir. 1995), Akers maintains
that the district court violated its "duty to insure that [he] has" access to counsel of his choice, COA
Appl. at 11. But his challenge to the district court's ruling conflates two distinct issues: whether he
has the right to counsel of choice at this stage in the proceeding and the proper mechanism for
seeking relief based on prison officials' alleged interference with his ability to retain and
communicate with private counsel.
With respect to the first issue, Gonzalez-Lopez held that the erroneous deprivation of a criminal
defendant's choice of counsel at triai{2020 U.S. App. LEXIS 14} constitutes structural error requiring
reversal. 548 U.S. at 150-52. It does not, however, support Akers' contention that the court has a
duty to ensure that he has access to counsel of his choice to help him with post-conviction and
habeas motions more than a decade after his conviction became final. To the contrary, "[t]here is no
constitutional right to counsel beyond the direct appeal of a criminal conviction." Coronado v. Ward,
517 F.3d 1212, 1218 (10th Cir. 2008).
As for the second issue, the district court correctly held that the proper mechanism for Akers to
challenge the prison officials' alleged interference with his ability to retain and communicate with
counsel is in a civil rights action, not in a habeas petition. See Rael v. Williams, 223 F.3d 1153, 1154
(10th Cir. 2000) (holding that conditions-of-confinement claims must be brought in civil rights suit,
not in habeas petition). Indeed, Mann, which Akers relies on, supports the court's determination:
Mann involved a civil rights suit filed under 42 U.S.C. § 1983 on behalf of inmates to challenge a
prison policy prohibiting barrier-free or contact visits between inmates and legal counsel on Sixth and

CIRHOT

5

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

I

Fourteenth Amendment grounds. 46 F.3d at 1056; see also id. at 1060 (holding that "the Sixth
Amendment does not require in all instances full and unfettered contact between an inmate and
counsel").
We conclude that the district{2020 U.S. App. LEXIS 15} court did not err in denying Akers' motion
for access to counsel or in holding that both that motion and Akers' allegations of court collusion in
his motion regarding appointment of the FPD were frivolous and warranted the imposition of
sanctions.
CONCLUSION
We deny Akers' application for a COA to appeal the order denying his motion to void judgment and
dismiss the matter with respect to that portion of the district court's order. We affirm the district
court's order in all other respects, and we deny Akers' IFP motion. A filing and docketing fee of
$505.00 is immediately due and payable to the Clerk of the District Court. We caution Akers that
future frivolous appeals concerning the conviction and sentence at issue here may result in summary
disposition without discussion and/or an order requiring him to show cause why this court should not
impose both appellate filing restrictions and sanctions.4See Andrews v. {807 Fed. Appx. 868}
Heaton, 483 F.3d 1070, 1077-78 & n.10 (10th Cir. 2007). We further caution him that the fact he is a
pro se litigant does not prohibit the court from imposing such sanctions. See Haworth v. Royal, 347
F.3d 1189, 1192 (10th Cir. 2003).
Footnotes

This order is not binding precedent except under the doctrines of law of the case, res judicata, and
collateral estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P.
32.1 and 10th Cir. R. 32.1.
1
Because Akers is pro se, we construe his filings liberally. See Haines v. Kerner, 404 U.S. 519, 520,
92 S. Ct. 594, 30 L. Ed. 2d 652 (1972); Garza v. Davis, 596 F.3d 1198, 1201 n.2 (10th Cir. 2010)^
2

CIRHOT
© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

S'

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 1 of 27

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
UNITED STATES OF AMERICA,
Plaintiff,
v.

MONTGOMERY CARL AKERS,
Defendant.

)
)
)
)
)
)
)
)

CRIMINAL ACTION
No. 04-20089-01-KHV

MEMORANDUM AND ORDER
On November 20, 2006, the Court sentenced defendant to 327 months in prison. On
January 16, 2008, the Tenth Circuit Court of Appeals affirmed defendant’s sentence. Since that
time, defendant has filed a litany of frivolous motions and appeals throughout the country
involving various collateral matters related to his conviction and sentence. This matter is before
the Court on defendant’s Motion To Void The Original Habeas Proceedings In This Case Based
Upon A Lack Of Subject-Matter Jurisdiction (Doc. #475) filed March 18, 2019, defendant’s
Motion For Appointment Of The Federal Public Defender Per Standing Order 18-3 (Doc. #476)
filed March 18, 2019, defendant’s Motion To Amend The Restitution Order (Doc. #477) filed
March 18, 2019, defendant’s Motion For Status Update Regarding Doc. #475 Filed On March 28.
2019 (Doc. #481) filed July 10, 2019, Defendant’s Motion In Notifying The District Court That
He Is Being Interfered With And Being Denied The Ability To Retain And Secure Licensed
Counsel To Represent Him Concerning Docket [Nos.] 475. 476. 477. 478. 479 [And! 480 Before
This Court (Doc. #482) filed July 15, 2019 and defendant’s Motion For Leave To Proceed On
Appeal Without Prepayment Of Costs Or Fees (Doc. #485) filed October 21, 2019. For reasons
stated below, defendant is not entitled to any relief. In addition, the Court sanctions defendant in

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 2 of 27

the amount of $76,000.00 for his current filings and proposes restrictions on defendant’s filing of
documents.
Factual And Procedural Background
While serving a 105-month sentence at USP-Leavenworth for bank fraud and related
charges, defendant successfully recruited an unwitting pen pal to help him create worthless checks
and engage in fraudulent activity. As a result, a grand jury returned an indictment which charged
him with five counts of wire fraud.
While the indictment was pending, defendant recruited Donald Mixan, a fellow inmate at
Corrections Corporation of America in Leavenworth, Kansas, to help engage in a scam involving
opening accounts with counterfeit checks. After Mixan was released from custody, defendant
coordinated with Mixan to execute the fraudulent scheme which involved payments to defendant’s
alleged wife, attorneys that defendant wanted to retain and Mixan’s landlord. As a result, a grand
jury returned a superseding indictment which added a count for conspiracy to commit bank fraud.
After defendant pled guilty to one count of wire fraud and was awaiting sentencing, he
initiated yet another fraudulent scheme involving a pen pal who suffered from multiple sclerosis.
In the end, before the fraudulent scheme could be fully executed, the pen pal’s son contacted law
enforcement personnel.
Still before sentencing, defendant proceeded to recruit another unwitting participant, a
former cellmate’s daughter, in a fraudulent scheme based on his promise of employment and
financial security. The individual was unable to actually produce any fraudulent checks for
defendant, but she and her family suffered financially from his conduct.

-2-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 3 of 27

On November 20, 2006, the Court sentenced defendant to 327 months in prison. The
Tenth Circuit affirmed defendant’s sentence on direct appeal. See United States v. Akers. 261 F.
App’x 110 (10th Cir. Jan. 16, 2008).
On September 1, 2009, the Court overruled defendant’s Motion Under 28 U.S.C. § 2255
To Vacate. Set Aside. Or Correct Sentence By A Person In Federal Custody (Doc. #308) filed
April 29, 2009. See Memorandum And Order (Doc. #321).
In addition to numerous post-conviction motions filed in this criminal matter, defendant
throughout the country has filed multiple civil suits involving this case against his former attorney,
the undersigned judge, the prosecutor, the FBI case agent, deputy U.S. Marshals and others. See.
e.e.. Akers v. Flannigan. No. 17-3094-SAC, 2017 WL 6550860 (D. Kan. Nov. 8, 2017)
(dismissing action under Bivens v. Six Unknown Agents of Fed. Bureau of Narcotics. 403 U.S.
388 (1971) against AUSA, FBI agent and BOP legal advisor); Akers v. Walton. No. 14-CV-1330DRH, 2015 WL 264705, at *3 (S.D. Ill. Jan. 20, 2015) (dismissing § 2241 action asserting denial
of unfettered access to financial resources outside prison walls); Akers v. Walton. No. 13-CV01090-DRH, 2013 WL 6068584, at *1 (S.D. Ill. Nov. 18, 2013) (dismissing § 2241 action alleging
BOP interfered with access to finances and tampered with legal mail); Akers v. Roal-Wemer.
No. 12-CV-1037-DRH, 2012 WL 5193583, at *3 (S.D. Ill. Oct. 19, 2012) (dismissing § 2241
action alleging prison staff interfered with communications with counsel and denied access to
finances); Akers v. Roal. No. 1 l-cv-622-MJR, ECF Docs. 38 and 39 filed Aug. 13, 2012 and
Sept. 11, 2012 (S.D. Ill.) (dismissing Bivens action alleging prison staff interfered with
communications with counsel and denied access to finances); Akers v. Hollingsworth. No. 11-CV-3-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 4 of 27

00103-DRH, 2011 WL 4404121, at *1 (S.D. Ill. Sept. 21, 2011) (dismissing §2241 action
requesting “privileged, unmonitored, meaningful contact with his attorney; preventing prison staff
from rejecting his attorney’s correspondence; and enjoining the Bureau of Prisons from denying
him the right to access and sell his legitimate assets, by phone or mail, in order to fund his legal
expenses”); Akers v. Rokusek. No. 09-cv-448-KJD-PAL, ECF No. 12 (D. Nev. Mar. 19, 2010)
(dismissing Bivens action against former counsel, FBI agent, AUSA and some 40 others); Akers
v. Shute. No. 08-3106-SAC, 2010 WL 934616, at *2-4 (D. Kan. Mar. 11, 2010) (dismissing
Bivens action alleging deputy U.S. Marshals, AUSA and FBI agent interfered with mail); Akers
v. Keszei. Nos. 09-1654 & 09-1834, Judgment at 1-2, available on Pacer (1st Cir. Jan. 21, 2010)
(affirming dismissal of civil rights actions filed in Districts of New Hampshire and Maine alleging
FBI agents, AUSA, defense counsel and deputy U.S. Marshal interfered with business dealings
and attorney communications); Akers v. Crow. 343 F. App’x 319 (10th Cir. Aug. 28, 2009)
(affirming dismissal and finding frivolous Bivens action against district judge and clerk of court);
Akers v. Martin. 227 F. App’x 721 (10th Cir. Mar. 23,2007) (affirming dismissal of Bivens action
against AUSA, defense counsel, FBI agent, undersigned judge and U.S. Attorney); Akers v.
Keszei. No. 07-00572-JCM, 2009 WL 1530819 (D. Nev. June 1, 2009) (dismissing suit against
FBI agent and others); Akers v. Vratil. No. 08-cv-2692-SBA, ECF No. 10 (N.D. Cal. Oct. 17,
2008) (transferring case to D. Kan. against undersigned judge, AUSA and deputy U.S. Marshals);
Akers v. Martin. No. 07-3569, Judgment. ECF No. 16 (8th Cir. Feb. 21, 2008) (summarily
affirming dismissal of FBI agent, prosecutor, prior counsel, deputy U.S. Marshals, victims of
fraudulent scheme and others).

-4-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 5 of 27

In the pending motions, defendant seeks essentially the same relief that this Court and other
courts have repeatedly denied.
Analysis
I.

Defendant’s Motion To Void Judgment (Doc. #475)
Under Rule 60(b)(4) of the Federal Rules of Civil Procedure, defendant asks the Court to

void the judgment on his initial Section 2255 motion for lack of jurisdiction. Motion To Void
The Original Habeas Proceedings (Doc. #475) at 1. Initially, the Court must address how to
construe defendant’s motion.
The relief sought - not a motion’s title - determines whether a movant filed a true
Rule 60(b) motion or an unauthorized second or successive petition under Section 2255. United
States v. Nelson. 465 F.3d 1145, 1149 (10th Cir. 2006); see also United States v. Torres. 282 F.3d
1241, 1242,1246 (10th Cir. 2002) (allowing petitioner to avoid bar against successive petitions by
styling petition under different name would erode procedural restraints of Sections 2244(b)(3) and
2255). A true Rule 60(b) motion (1) challenges only a procedural ruling (such as timeliness)
which precluded a merits determination of the habeas application or (2) challenges a defect in the
integrity of the federal habeas proceedings, provided that such a challenge does not itself lead
inextricably to a merits-based attack on the disposition of a prior habeas petition. Soitznas v.
Boone. 464 F.3d 1213, 1224-25 (10th Cir. 2006). An issue should be considered part of a second
or successive petition “if it in substance or effect asserts or reasserts a federal basis for relief from
the petitioner’s underlying conviction.” Id at 1225.

When determining the nature of a motion,

the Court considers each issue in the motion to determine whether it represents a successive

-5-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 6 of 27

petition, a Rule 60(b) motion or a “mixed” motion. Id at 1224.
Defendant argues that the Court lacked subject matter and personal jurisdiction in the
habeas proceeding because the superseding indictment does not charge a violation of federal law.
Specifically, defendant asserts that (1) in February of 2000, Fidelity Investments was not a
federally insured financial institution doing business in Kansas, (2) it was factually impossible for
a grand jury in Kansas to find that he committed the charged crime, (3) the grand jury returned the
superseding indictment after the statute of limitations had expired and (4) he was arrested and
charged based on perjured testimony, fraud, deceit and outrageous prosecutorial misconduct. See
Motion To Void The Original Habeas Proceedings (Doc. #475) at 1-3; Second Addendum To
Defendant’s Motion To Void The Judgment In The First Habeas Proceedings Of This Case (Doc.
#478) filed March 29, 2019, at 6-7; Brief In Support Of And Clarification Of Defendant’s Motion
To Void The Original Habeas Proceedings In This Case Based Upon A Lack Of Subject-Matter
Jurisdiction (Doc. #480) filed May 20, 2019, at 2-4 & 3 n.l.
Defendant characterizes his motion as a “true” Rule 60(b) motion because it asserts that
the Court incorrectly denied relief “for failure to exhaust, procedural bar, or . . . statute of
limitations.” Brief In Support (Doc. #480) at 1. In reality, his claims challenge the substance
of the Court’s ruling on his original Section 2255 motion. In an order entered some ten years
ago, the Court overruled on the merits defendant’s claims that counsel provided ineffective
assistance because she “coaxed defendant into pleading guilty to a crime that was legally
impossible for him to have committed” and did not argue that the Court lacked subject matter
jurisdiction. Memorandum And Order (Doc. #321) at 3-4. The Tenth Circuit affirmed. Now,

-6-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 7 of 27

defendant asks the Court to reconsider its ruling on subject matter jurisdiction and the sufficiency
of the indictment. See Motion To Void The Original Habeas Proceedings (Doc. #475) at 3
(district court lacked jurisdiction because “factually impossible” to commit charged crime; district
court lacked personal jurisdiction over defendant for entirety of case); Second Addendum (Doc.
#478) at 1 (defendant not present at USP-Leavenworth when his “unconstitutional loss of liberty
began on August 30, 2004”); id (Court “lacked authority under Article III to (1) entertain [the
government’s] claims, (2) detain the Defendant in federal custody, (3) allow him to stand trial or
enter into plea negotiations, [and] (4) enter any judgments”); Brief In Support (Doc. #480) at 3
(“indictment is fatally deficient”); id. at 4 (court lacks subject matter jurisdiction to enter orders
because defendant not “legally and factually charged with a violation of federal law”); id. at 5
(court lacked jurisdiction over crime of wire fraud alleged in superseding indictment).
All of defendant’s present claims in substance or effect assert or reassert federal grounds
for relief from his underlying conviction and sentence. Indeed, at least as to one of his theories,
defendant concedes that he challenged the “very same jurisdictional element in his original habeas
proceeding.” Brief In Support (Doc. #480) at 5. Because defendant has previously sought relief
under Section 2255, the Court construes his claims as part of a second or successive Section 2255
motion. l
l

See United States v. Wetzel-Sanders. 805 F.3d 1266,1268 (10th Cir. 2015) (motion
which attacks judgment of conviction or sentence when prior motion already did so constitutes
second or successive motion); see also United States v. Grigsby. 715 F. App’x 868, 869 (10th Cir.
2018) (Rule 60(b)(4) motion asserting district court lacked jurisdiction over criminal proceeding
effectively a § 2255 motion); United States v. Moreno. 655 F. App’x 708, 713 (10th Cir. 2016)
(motion to reconsider which reargues and expands upon prior substantive challenges to conviction
(continued. . . .)
-7-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 8 of 27

Defendant argues that because his unconstitutional loss of liberty began on August 30,
2004, near the time of his initial detention, he is not attacking the “underlying conviction, sentence,
or the ruling on the merits in his prior habeas proceedings.” Second Addendum (Doc. #478) at
1. Defendant also maintains that he is challenging subject matter jurisdiction only in the “habeas
proceeding,” but his arguments are merely a reiteration of his prior challenge to the sufficiency of
the indictment, which necessarily challenges the validity of his conviction.

Defendant’s

jurisdictional claims also lead inextricably to a merits-based attack on the disposition of his prior
Section 2255 motion.

See Brief In Support (Doc. #480) at 2 (court mischaracterized plea

proceedings to support erroneous conclusion on subject matter jurisdiction). Accordingly, the
Court construes defendant’s present claims about the sufficiency of the indictment and subject
matter jurisdiction as an attack on his conviction.2
II.

Relief Under 28 U.S.C. § 2255
As stated, defendant previously filed a Section 2255 motion.

Pursuant to the

Antiterrorism and Effective Death Penalty Act of 1996, defendant may not file a second or
successive motion pursuant to Section 2255 unless he first applies to the appropriate court of
appeals for an order authorizing the district court to consider the motion.

See

i

(. . . .continued)
not true Rule 60(b) motion); United States v. Tucker. 642 F. App’x 926, 928 (10th Cir. 2016)
(argument under Rule 60(b)(4) motion that conviction based on unconstitutional grand jury
indictment falls squarely within § 2255).
2

Even if defendant’s motion could partially be construed as a Rule 60(b)(4) motion,
it lacks merit and is time-barred.
-8-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 9 of 27

28 U.S.C. §§ 2244(b)(3), 2255(h). If defendant files a second or successive motion without first
seeking the required authorization, the district court may (1) transfer the motion to the appellate
court if it determines that it is in the interest of justice pursuant to 28 U.S.C. § 1631 or (2) dismiss
the motion for lack of jurisdiction. See In re Cline. 531 F.3d 1249, 1252 (10th Cir. 2008). The
Court has discretion whether to transfer or dismiss without prejudice. Trujillo v. Williams. 465
F.3d 1210, 1222-23 (10th Cir. 2006). In making this decision, the Court considers whether the
claims would be time-barred if filed anew in the proper forum, are likely to have merit and were
filed in good faith or, on the other hand, if it was clear at the time of filing that the Court lacked
jurisdiction. Ifr at 1223 n. 16.
A second or successive motion under 28 U.S.C. § 2255 may be filed in the district court if
the court of appeals certifies that the motion is based on (1) newly discovered evidence that if
proven and viewed in light of the evidence as a whole would establish by clear and convincing
evidence that no reasonable fact finder would have found defendant guilty of the offense or (2) a
new rule of constitutional law, made retroactive to cases on collateral review by the Supreme
Court, that was previously unavailable. 28 U.S.C. § 2255(h).
Because defendant did not receive authorization from the Tenth Circuit and it appears that
his claims do not satisfy the authorization standards under Section 2255, the Court dismisses the
motion rather than transferring it to the Tenth Circuit. See In re Cline. 531 F.3d at 1252 (district
court may refuse to transfer motion which fails on face to satisfy authorization standards of
Section 2255(h)); Phillips v. Seiter. 173 F.3d 609, 610 (7th Cir. 1999) (waste of judicial resources
to require transfer of frivolous, time-barred cases).

-9-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 10 of 27

Here, defendant’s claims do not assert new evidence or argue that the Supreme Court has
made retroactive a new rule of constitutional law. Rather, defendant raises claims that he either
asserted or could have asserted on direct appeal or in his initial Section 2255 motion.
Accordingly, the Court declines to transfer the present motion to the court of appeals.
III.

Certificate Of Appealability
Under Rule 11 of the Rules Governing Section 2255 Proceedings, the Court must issue or

deny a certificate of appealability when it enters a final order adverse to the applicant. A
certificate of appealability may issue only if the applicant has made a substantial showing of the
denial of a constitutional right. 28 U.S.C. § 2253(c)(2).3 To satisfy this standard, the movant
must demonstrate that “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” Saiz v. Ortiz. 392 F.3d 1166, 1171 n.3 (10th Cir.
2004) (quoting Tennard v. Dretke. 542 U.S. 274, 282 (2004)).

For reasons stated above,

defendant has not satisfied this standard. The Court therefore denies a certificate of appealability
as to its ruling on defendant’s Section 2255 motion.
IV.

Motion To Amend Restitution Order (Doc. #477)
Defendant asks the Court to order the BOP to allow him to obtain a “forensic financial

investigation” and to submit the investigation along with full payment of his restitution. Motion
To Amend The Restitution Order (Doc. #477) at 10; see id at 7 (“BOP staff have refused to send

3

The denial of a Section 2255 motion is not appealable unless a circuit justice or a
circuit or district judge issues a certificate of appealability. See Fed. R. App. P. 22(b)(1); 28
U.S.C. § 2253(c)(1).
-10-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 11 of 27

mail to financial advisors, who the defendant has contacted for assistance in . . . paying the
restitution order to this court.”). While defendant states that he “will vigorously attack the
underlying judgment in this case as invalid and void,” id. at 2, he seeks to pay the restitution in
full now that he purportedly has the ability to do so. Defendant states that BOP personnel have
prevented him from (1) consummating the sale of his business concept for five billion dollars and
(2) accessing 270 million dollars in accounts receivables. Id at 6-7; see id. at 7 (“Defendant has
a payment database with $270 million dollars in receivables contained in it that BOP personnel
will not allow him to access.”).
In 2015, in the Southern District of Illinois, defendant raised a similar claim under
Section 2241. In that action, he sought an order directing BOP officials to allow him “to access
funds of his lawful ownership in order to make a one time lump sum payment of restitution as
ordered by the Court,” and to provide him with an accounting of where the funds taken from his
prisoner account have been applied. See Walton. 2015 WL 264705, at *1. The Honorable
David R. Herndon denied defendant’s request, stating as follows:
Admirable as petitioner’s intentions may be to pay off his sizeable restitution in one
lump sum, neither sentencing court required him to do so. As long as he remains
in prison, he must pay only 10% of his monthly income toward restitution.
Further payments are deferred until after his release. Therefore, it is not necessary
for this Court to order the respondent to take any action whatsoever in order for
petitioner to comply with the sentencing courts’ restitution orders. Furthermore,
it is frivolous for petitioner to suggest that prison officials are “preventing” him
from paying his court-ordered restitution, when in fact he is under no requirement
at this time to pay anything more than the 10% assessment from his prisoner
account.
Addressing the second issue, petitioner’s request for an accounting regarding any
payments made pursuant to his participation in the IFRP [Inmate Financial
Responsibility Program] is not a matter subject to this Court’s oversight. The
-11-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 12 of 27

Seventh Circuit has made it clear that district courts have no authority to interfere
with the BOP’s discretion in its administration of the IFRP. See In Re: Buddhi.
658 F.3d 740, 741 (7th Cir. 2011). This should come as no surprise to petitioner,
as this Court informed him of its inability to override the BOP’s discretion as to the
IFRP program, in the order dismissing his last habeas petition. Akers v. Walton.
Case No. 13-cv-l 090-DRH (Doc. 4).
The Attorney General, not the courts, is responsible for the collection of courtordered restitution, and this authority has been delegated to the BOP. This
delegation of authority is proper, and “the courts are not authorized to override the
Bureau’s discretion about such matters, any more than a judge could dictate
particulars about a prisoner's meal schedule or recreation (all constitutional
problems to the side).” Buddhi. 658 F.3d at 741 (internal quotations and citations
omitted). It would thus be improper for this Court to insert- itself into the
respondent’s management of the IFRP by ordering an accounting of the disposition
of petitioner’s payments made under that program. The petition shall therefore be
dismissed.
Id. at *2.
In 2017, under Bivens, defendant asked for similar relief in a civil rights complaint. See
Akers v. Flannigan. No. 17-3094-SAC-DJW, 2017 WL 6551114 (D. Kan. July 6, 2017) (alleged
defendants violated his “constitutional rights by preventing him from accessing $250 million in
funds and by contacting potential defense counsel to dissuade them from representing” him). The
Honorable Sam A. Crow dismissed the case because Akers failed to pay the filing fee. See
Flannigan. 2017 WL 6550860, at *1-2.
Under the Mandatory Victims Restitution Act, 18 U.S.C. §§ 3663A, 3664, the Court may
adjust defendant’s payment schedule upon a showing of a material change in financial
circumstances. See 18 U.S.C. § 3664(k). Defendant’s present motion to seek modification of
the restitution order under Section 3664(k) is frivolous. Speculative business deals or potential
“receivables” do not come close to satisfying defendant’s burden to show that economic

-12-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 13 of 27

circumstances have changed enough to warrant modification of his restitution obligation. See
United States v. Hill. 205 F.3d 1342, 1999 WL 801543, at *1 (6th Cir. Sept. 28, 1999) (defendant
bears burden to prove by preponderance of evidence “material change” in economic
circumstances) (quoting 18 U.S.C. § 3664(k)); United States v. Broadus. No. 3:10-CR-183-B (01),
2014 WL 4060048, at *1 (N.D. Tex. Aug. 15, 2014) (defendant bears burden to prove that
circumstances have changed enough to warrant modification).

Based on defendant’s stated

intention to continue to contest the validity of the restitution order, it appears that his effort to
change his restitution obligation is a thinly veiled attempt to continue questionable business
dealings from prison.

See, e.g.. International Employment Opportunities About Us Page &

Operational Plan (Doc. #477-1) at 1 (“We guarantee you that if you follow our simple program,
you will make $300-500 a day after your initial (7) day indoctrination period. After the (7) weeks
of in-home training, you will be [sic] make no less than $750.00 a day.”); id. at 8 (client is required
to purchase database for $200.00 and operational database for $500.00 at final training session,
“[b]y that time you will have amassed thousands of dollars in commissions,” client will then pay
$150.00 per week for electronic leads that are issued daily); kL at 9 (“There is no reason why you
will not make at least $150.00 to 300.00 per day in commissions following our training DVD.”).
Defendant offers no legitimate reason why he would seek to expedite the paying of his restitution
while simultaneously arguing that the restitution judgment is invalid.
Defendant has not shown that modification of the restitution order is warranted.
Accordingly, the Court overrules defendant’s motion to amend.

-13-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 14 of 27

V.

Motion To Appoint Federal Public Defender (Doc. #476)
Defendant asks the Court to appoint counsel to investigate potential Sixth Amendment

claims involving attorney-client recordings. Under District of Kansas Standing Order No. 18-3,
the Federal Public Defender (“FPD”) was appointed “to represent any defendant from the District
of Kansas who may have a post-conviction Sixth Amendment claim based on the recording of inperson attorney-client meetings or attorney-client phone calls by any holding facility housing
federal detainees within this District.” As part of the appointment, the FPD is to “review potential
Because the FPD has already been appointed to review potential cases involving

cases.”

attorney-client recordings, the Court overrules as moot defendant’s motion to appoint counsel on
this issue. 4
VI.

Defendant’s Motion Related To Ability To Retain Counsel (Doc. #482)
Defendant argues that the BOP has interfered with his ability to retain attorney Alan Ellis

in Novato, California. See Defendant’s Motion (Doc. #482) at 1. In the Southern District of
Illinois, defendant raised similar claims under Section 2241.5

He has been informed that claims

4

At this stage, defendant has not shown that when he was at CCA-Leavenworth, the
government recorded any of his attorney-client communications. Even so, to ensure that the FPD
has notice of defendant’s potential claim, the Court directs the Clerk to forward a copy of this
Memorandum And Order to the Office of the FPD.
5

See, e.g.. Walton. 2013 WL 6068584, at *1 (BOP “reading, censoring and
rejecting” legal mail to counsel); Roal-Werner. 2012 WL 5193583, at *3 (prison staff interfering
with communications with counsel); Roal. No. 1 l-cv-622-MJR, ECF Doc.38 at 4 (S.D. Ill.
Aug. 13, 2012) (prison officials interfering with efforts to secure attorney); Hollingsworth. 2011
WL 4404121, at *1 (requesting “privileged, unmonitored, meaningful contact with his attorney;
preventing prison staff from rejecting his attorney’s correspondence; and enjoining the Bureau of
Prisons from denying him the right to access and sell his legitimate assets, by phone or mail, in
order to fund his legal expenses”).
-14-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 15 of 27

related to interference with communications with counsel must be raised as a “challenge to the
conditions of his confinement ... in a civil rights action (see Bivens v. Six Unknown Named
Agents. 403 U.S. 388, 91 S. Ct. 1999, 29 L.Ed.2d 619 (1971)), not in a habeas case.” RoalWemer. 2012 WL 5193583, at *3.
Defendant argues that he has a Sixth Amendment right to counsel, Defendant’s Motion
(Doc. #482) at 2, but this argument is frivolous at this stage of the criminal proceedings. See
Pennsylvania v. Finley. 481 U.S. 551, 555 (1987) (because defendant has no federal constitutional
right to counsel when pursuing discretionary appeals on direct review of conviction, he likewise
“has no such right when attacking a conviction that has long since become final upon exhaustion
of the appellate process”); Coronado v. Ward. 517 F.3d 1212, 1218 (10th Cir. 2008) (no
constitutional right to counsel beyond direct appeal of criminal conviction); see also Powers v.
Fed. Bureau of Prisons. 699 F. App’x 795, 798 (10th Cir. June 28, 2017) (distinguishing Luis v.
United States.---- U.S.

-, 136 S. Ct. 1083, 1088 (2016), which held that “pretrial restraint of

legitimate, untainted assets needed to retain counsel of choice violates the Sixth Amendment”
(emphasis added)).
The Court overrules defendant’s motion seeking assistance to stop interference with his
ability to retain counsel.
VII.

Motion For Leave To Appeal In Forma Pauperis (Doc. #485)
Defendant seeks in forma pauperis status on appeal.

Rule 24(a)(3), Fed. R. App. P.,

provides that a party who was determined to be financially unable to obtain an adequate defense
in a criminal case may proceed on appeal in forma pauperis without further authorization unless
-15-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 16 of 27

the district court, before or after the notice of appeal is filed, certifies that the appeal is not taken
in good faith. Based on the frivolous and duplicative nature of defendant’s motions, the Court
certifies that defendant’s Notice Of Filing Petition For Mandamus Relief Under 28 U.S.C. § 1361
(Doc. #483), which seeks to compel the Court to rule on defendant’s motions, is not taken in good
faith for purposes of 28 U.S.C. § 1915(a)(3). The Court therefore overrules defendant’s motion.
VIII. Sanctions
On August 7, 2013, the Court ordered filing restrictions as follows:
if defendant files any document in this criminal case which the Court deems
frivolous, the Court will sanction defendant a minimum of $500.00 for each
violation and may impose further restrictions on future filings in the District of
Kansas. This restriction does not apply to documents filed on defendant’s behalf
by a licensed attorney who is admitted to practice in the District of Kansas.
Memorandum And Order (Doc. #416) at 3. The Tenth Circuit dismissed for lack of prosecution
defendant’s appeal of the sanctions order. See Order (Doc. #431).
Subsequently, the Court sanctioned defendant $500.00 for the filing of Defendant’s
Combined Motion For Recusal Of Presiding Judge Kathryn H. Vratil: And Motion To Reopen
Habeas Proceedings In This Case Due To Fraud Being Perpetrated Upon The Court In The First
Habeas Proceeding (Doc. #457) because it contained frivolous factual allegations and legal
theories. Memorandum And Order (Doc. #466) filed June 15, 2017 at 3-5. The Court imposed
further filing restrictions as follows:
[I]f defendant, files any further document in this criminal case which the Court
deems frivolous, the Court will sanction defendant a minimum of $1,000.00 for the
next violation, a minimum of $5,000.00 for a third violation, a minimum of
$10,000.00 for a fourth violation, and a minimum of $20,000.00 for a fifth and
subsequent violations.

-16-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 17 of 27

Id. at 5. On appeal, the Tenth Circuit affirmed, stating as follows:
We agree with the district court that filing sanctions were appropriate. See Tripati
v. Beaman. 878 F.2d 351, 354 (10th Cir. 1989) (setting forth relevant factors for
imposing sanctions). We are not persuaded by any of the arguments Akers
advances in his briefing or in the several motions he has filed in this court. We
caution Akers that future frivolous appeals may result in an order requiring him to
show cause to avoid appellate filing restrictions or sanctions.
United States v. Akers. 740 F. App’x 633, 635 (10th Cir. July 2, 2018), cert, denied. 139 S. Ct.
1573 (2019).
A document or argument generally is considered “frivolous” where it lacks an arguable
basis either in law or in fact. Neitzke v. Williams. 490 U.S. 319, 325 (1989) (frivolous complaints
include “fanciful factual allegation” or challenges to “inarguable legal conclusion”).
Defendants’ current filings contain numerous statements or arguments that are frivolous,
including the following:
A.

Violations 1, 2 and 3 /Does. #475. #478 & #4801

Defendant’s Motion To Void The Original Habeas Proceedings In This Case Based Upon
A Lack Of Subject-Matter Jurisdiction (Doc. #475) filed March 18, 2019, defendant’s Second
Addendum To Defendant’s Motion To Void The Judgment In The First Habeas Proceedings Of
This Case (Doc. #478) filed March 29,2019 and defendant’s Brief In Support Of And Clarification
Of Defendant’s Motion To Void The Orieinal Habeas Proceedings In This Case Based Upon A
Lack Of Subject-Matter Jurisdiction (Doc. #480) filed May 20, 2019, all assert frivolous
arguments related to jurisdiction and standing. Defendant continues to maintain that the Court
lacks jurisdiction and that the indictment is legally defective because of fraud on the Court. The
Court has repeatedly rejected factual allegations and legal theories which are nearly identical.
-17-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 18 of 27

Defendant has appealed numerous orders involving these issues. For reasons stated above and in
prior orders, all three documents (Doc. ##475, 478 & 480) related to defendant’s motion to void
the original habeas proceedings include fanciful factual allegations or legal theories.6
B.

Violation 4 (Doc. #476)

Defendant’s statement that he has “evidence of numerous Sixth Amendment violations
inculpating [the undersigned judge and others] in the recording of his attorney-client phone calls
and visits and theft(s) of mail” is frivolous. Motion For Appointment Of The Federal Public
Defender Per Standing Order 18-3 (Doc. #476) at 1. As “evidence” of such violations, defendant
cites an order from the Honorable Julie A. Robinson in United States v. Carter. No. 16-20032-02,
which merely recites defendant’s allegations of “fraud upon the Court by Judge Vratil and the
prosecutor in his criminal proceeding” including theft of his mail and recording of attorney visits
and calls.

Motion For Appointment (Doc. #476) at 2.

6

Defendant cites no evidence that

The Court has previously rejected defendant’s challenges to the lawfulness of the
indictment. See Memorandum And Order (Doc. #248) filed March 5, 2008 at 1-2 (rejecting
jurisdictional challenge to indictment under Fed. R. Crim. P. 12(b)(3)(B) because defendant filed
it after judgment was entered), appeal dismissed. 281 F. App’x 844, 845 (10th Cir.) (per curiam),
cert, denied. 555 U.S. 923 (2008); United States v. Akers. 2008 WL 4911145, at *1 (D. Kan.
Nov. 13, 2008) (overruling jurisdictional challenge to indictment under Fed. R. Crim. P. 12(e)
which raised same arguments as prior Rule 12(b)(3)(B) motion), appeal dismissed, 317 F. App’x
798 (10th Cir.), cert, denied. 558 U.S. 1036 (2009); see also United States v. Akers. 2016 WL
3014955, at *1 (D. Kan. May 26, 2016) (rejecting allegations that indictment defective because
(1) indictment does not set forth federal offense, (2) grand jury not legally constituted and
(3) alleged victim not federally insured financial institution); Memorandum And Order (Doc.
#466) filed June 15, 2017 at 4 (finding as frivolous claims that (1) grand jury did not return
“constitutional^ and lawful” indictment, (2) judge knew “from the outset of this case” that
indictment was fraudulent, and (3) judge “acquiesced in fraud perpetrated upon the court in the
form of a non-exist[e]nt grand jury indictment and related grand jury and district court
misconduct”).
-18-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 19 of 27

implicates the undersigned judge. For reasons the Court has repeatedly explained, defendant’s
allegations of unlawful coordinated conduct between the undersigned judge and the prosecutor are
untrue, irrational and unsubstantiated. See, e.g.. Memorandum And Order (Doc. #466) filed
June 15, 2017 at 2; Memorandum And Order (Doc. #421) filed September 11, 2013 at 1;
Memorandum And Order (Doc. #416) filed August 7, 2013 at 2; Memorandum And Order (Doc.
#390) filed March 16, 2012 at 2; Memorandum And Order (Doc. #328) filed October 30, 2009 at
1-2; Memorandum And Order (Doc. #233) filed July 19, 2007 at 2-3.
C.

Violation 5 (Doc. #477)

For substantially the reasons stated above, see supra text, Analysis, Part IV, defendant’s
Motion To Amend The Restitution Order (Doc. #477) filed March 18, 2019 is frivolous.
D.

Violation 6 (Doc. #4821

Defendant’s Motion In Notifying The District Court That He Is Being Interfered With And
Being Denied The Ability To Retain And Secure Licensed Counsel To Represent Him Concerning
Docket fNos.l 475. 476. 477. 478. 479 landl 480 Before This Court (Doc. #482) filed July 15,
2019 is frivolous. As explained above, at this stage of the proceedings, defendant has no Sixth
Amendment right to counsel. In addition, at least one court has informed defendant that claims
related to BOP interference with his communications with counsel must be brought as a civil rights
action under Bivens, not as a habeas motion. See Roal-Wemer. 2012 WL 5193583, at *3 (S.D.
Ill.). Likewise, the Tenth Circuit previously characterized defendant’s appeal in this criminal
case on a similar issue as follows: “Th[e] appeal is frivolous. Mr. Akers requested relief in his
criminal case, alleging that his custodian had interfered with his right to contact counsel by

-19-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 20 of 27

telephone. He had apparently already requested such relief through a separate civil action.
Although the district court had previously informed him that he should pursue such claims in a
civil case, he appealed. We decline to reinstate a frivolous appeal.” See Order (Doc. #432)
filed January 24, 2014 at 1. In flagrant disregard of these rulings, defendant has again reasserted
the claim in this criminal case.
E.

Amount Of Sanctions

Because defendant has filed at least six documents that contain frivolous arguments, the
Court sanctions defendant in a total amount of $76,000.00, which reflects the minimum amount
set forth in the Memorandum And Order (Doc. #466) for each violation (i.e. $1,000 for the first
subsequent violation, $5,000 for the second, $10,000 for the third and $20,000 each for the fourth,
fifth and sixth subsequent violations).7 While defendant shall remain subject to a minimum
sanction of $20,000.00 for each document filed in this criminal case that is frivolous, the Court
intends to impose progressive sanctions above this minimum amount for future violations and such
sanctions will increase exponentially for each subsequent violation.
IX.

Additional Filing Restrictions
In addition to monetary sanctions based on defendant’s frivolous filings, filing restrictions

are necessary. In related civil actions, several courts have denied Akers in forma pauperis status
because he has more than three strikes under 28 U.S.C. § 1915(g). See Akers v. Keszei. No. 2:07CV-00572-JCM, 2012 WL 1340497, at *3 (D. Nev. Apr. 18, 2012); Hollingsworth. 2011 WL

7

Regardless of the precise number of violations, sanctions in the total amount of
$76,000 are warranted.
-20-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 21 of 27

4404121, at *2 n.l; see also Akers v. Flannigan. No. 17-3094-SAC-DJW, 2017 WL 6551114, at
*1 (D. Kan. July 6, 2017) (“Mr. Akers has long been designated a three-strikes litigant under
Section 1915(g) and he has repeatedly been advised that absent a showing of imminent danger, he
has lost the right to proceed in forma pauperis in federal court because of his repeated filing of
frivolous lawsuits.”). In addition, some courts have imposed pre-filing review restrictions on
defendant. See In re Akers. No. 12-80210, ECF Nos. 2 and 3 filed Mar. 1 and April 15, 2013
(9th Cir.) (noting pre-filing restriction based on defendant’s 9th Circuit appeals since 2007: six
dismissed for lack ofjurisdiction, four dismissed for lack of prosecution, two dismissed voluntarily
and one summarily affirming district court ruling); Walton. 2015 WL 264705, at *3-4 (S.D. Ill.)
(after fourth habeas petition since he was banned from filing new non-habeas civil cases in district,
court imposed restriction that “all papers filed in a collateral attack or habeas action by petitioner
Montgomery Carl Akers, Inmate No. 02866-081, will be received and reviewed by this Court, but
shall be deemed DENIED after thirty days, unless the Court orders otherwise.”); Akers v.
Sandoval. No. 95-1306, 1996 WL 635309, at *2 (10th Cir. Nov. 4, 1996) (upholding restriction
in District of Colorado that requires leave of court before filing civil action pro se).
The right of access to the courts is neither absolute nor unconditional and the Constitution
confers no right to prosecute frivolous or malicious actions. See Winslow v. Hunter. 17 F.3d
314, 315 (10th Cir. 1994). The fact that defendant is serving a prison sentence does not entitle
him to file frivolous documents in perpetuity.

The goal of fairly dispensing justice is

compromised when the Court is forced to devote limited resources to processing repetitious and
frivolous claims. In re Sindram. 498 U.S. 177, 180 (1991). Federal courts have inherent power

-21-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 22 of 27

to regulate the activities of abusive litigants by imposing carefully tailored restrictions under
appropriate circumstances. See Tripati. 878 F.2d at 352; see also Phillips v. Carey. 638 F.2d 207,
209 (10th Cir. 1981) (exercise of power to limit filing limited to well-documented and extreme
cases; litigant’s history must indicate that his filings are predominantly malicious, frivolous or
otherwise abusive).
Here, several factors weigh in favor of limiting any further pro se filings in this case. First,
defendant has a lengthy history of litigation that entails “vexatious, harassing or duplicative
lawsuits.” Safir v. U.S. Lines. Inc.. 792 F.2d 19, 24 (2d Cir. 1986). More than ten years ago, on
January 16, 2008, the Tenth Circuit Court of Appeals affirmed defendant’s sentence. Defendant
has filed a barrage of frivolous motions and civil cases which challenge collateral matters related
to his criminal case. Since the Tenth Circuit affirmed defendant’s sentence, this Court and the
Tenth Circuit have collectively issued some 47 orders related to defendant’s numerous motions
and appeals. See District Court Orders (Doc. ## 248,277,280, 282, 283, 291, 292, 306, 321, 328,
335, 366, 375, 384, 388, 390, 393, 396,408, 416, 421,430, 437, 439, 449, 461, 473) filed between
March 5,2008 and July 26, 2018; Tenth Circuit Orders (Doc. ##265, 310, 313, 363, 370, 371, 386,
404, 411, 412, 431, 432, 433, 435, 444, 446, 455, 465, 466, 472) filed between July 28, 2008 and
July 25, 2018. Defendant has filed numerous civil suits throughout the country in an attempt to
argue collateral issues. Nearly all of plaintiffs filings have been duplicative, vexatious and
meritless. See Wemer v. Utah. 32 F.3d 1446, 1447-48 (10th Cir. 1994) (filing restrictions valid
exercise of inherent powers against litigant who has “documented lengthy history of vexatious,
abusive actions”).
-22-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 23 of 27

Other factors also weigh in favor of filing restrictions. Defendant certainly does not have
a good faith expectation of prevailing on his claims. See Safir. 792 F.2d at 24 (court should
consider “litigant’s motive in pursuing litigation, e.g. whether the litigant has an objective good
faith expectation of prevailing”). Defendant is not represented by counsel, and this fact has led
to numerous abusive filings. See id. Defendant’s abusive and repetitive filings have caused an
unnecessary burden on judicial resources. The Court has been taxed by processing defendant’s
numerous filings and drafting orders which explain well-established concepts and legal principles
that defendant surely understands. See id. (court should consider whether “litigant has caused
needless expense to other parties or has posed an unnecessary burden on the courts and their
personnel”).

The Court finds that monetary sanctions alone are insufficient and would not

adequately protect the Court and the government from future groundless filings. See id. (court
should consider whether lesser sanctions would be adequate to protect courts and other parties).
Further, this Court and many courts throughout the country have warned defendant concerning
further filing restrictions.
Based on the above factors, the Court proposes the following filing restrictions:
If defendant wishes to tile a document, he must file a motion that seeks leave
to do so with a copy of the document attached that he proposes to file. His
motion for leave and memorandum shall not exceed ten pages and no
supplements will be permitted.
Defendant’s motion for leave must
(1) address whether this Court or any other court has addressed directly or
indirectly any of the arguments presented in the document that he proposes to
file; (2) if this Court or another court has addressed any of the arguments,
attach a copy of the order that reflects the ruling; (3) explain why the proposed
document should not be construed as an unauthorized successive motion
under 28 U.S.C. Section 2255 and if construed as a Section 2255 motion why
he did not seek leave of the Tenth Circuit Court of Appeals to file the
document; and (4) explain why the proposed document should not be
-23-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 24 of 27

construed as a challenge to the execution of his sentence under 28 U.S.C.
Section 2241 or the conditions of his confinement under Bivens v. Six
Unknown Agents of Fed. Bureau of Narcotics. 403 U.S. 388 (1971). The
government will not be required to respond to the motion for leave unless the
Court so orders. In addition, absent extraordinary circumstances, the Court
will summarily rule on all future motions as well as the amount of sanctions
for the filing of any frivolous documents. See Tenth Circuit Order (Doc.
#472) filed July 25, 2018 at 5 (“we decline to assist Akers in further wasting
judicial resources with extensive discussion”). The above restrictions do not
apply to documents filed on defendant’s behalf by a licensed attorney who is
admitted to practice in the District of Kansas.
On or before November 22, 2019, defendant may file written objections, not to exceed ten
pages, to the additional proposed filing restrictions set forth here in Section IX.

If

defendant does not timely file an objection, the filing restrictions will go into effect on
December 1, 2019.
IT IS THEREFORE ORDERED that defendant’s Motion To Void The Original Habeas
Proceedings In This Case Based Upon A Lack Of Subject-Matter Jurisdiction (Doc. #475) filed
March 18, 2019, which the Court construes as a second or successive motion under
28 U.S.C. § 2255, is DISMISSED for lack of jurisdiction.
IT IS FURTHER ORDERED that a certificate of appealability as to the ruling on
defendant’s Section 2255 motion is DENIED.
IT IS FURTHER ORDERED that defendant’s Motion For Appointment Of The Federal
Public Defender Per Standing Order 18-3 (Doc. #476) filed March 18, 2019 is OVERRULED.
IT IS FURTHER ORDERED that defendant’s Motion To Amend The Restitution Order
(Doc. #477) filed March 18, 2019 is OVERRULED.
IT IS FURTHER ORDERED that defendant’s Motion For Status Update Regarding Doc.
-24-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 25 of 27

#475 Filed On March 28. 2019 (Doc. #481) filed July 10, 2019 is OVERRULED as moot.
IT IS FURTHER ORDERED that Defendant’s Motion In Notifying The District Court
That He Is Being Interfered With And Being Denied The Ability To Retain And Secure Licensed
Counsel To Represent Him Concerning Docket fNos.1 475. 476. 477. 478. 479 fandl 480 Before
This Court (Doc. #482) filed July 15, 2019 is OVERRULED.
IT IS FURTHER ORDERED that based on defendant’s filing of Defendant’s Motion
To Void The Original Habeas Proceedings In This Case Based Upon A Lack Of SubjectMatter Jurisdiction (Doc. #475) filed March 18, 2019, defendant’s Motion For Appointment
Of The Federal Public Defender Per Standing Order 18-3 (Doc. #476) filed March 18, 2019,
defendant’s Motion To Amend The Restitution Order (Doc. #477) filed March 18, 2019,
defendant’s Second Addendum To Defendant’s Motion To Void The Judgment In The First
Habeas Proceedings Of This Case (Doc. #478) filed March 29, 2019 and defendant’s Brief In
Support Of And Clarification Of Defendant’s Motion To Void The Original Habeas
Proceedings In This Case Based Upon A Lack Of Subject-Matter Jurisdiction (Doc. #480)
filed May 20,2019, and Defendant’s Motion In Notifying The District Court That He Is Being
Interfered With And Being Denied The Ability To Retain And Secure Licensed Counsel To
Represent Him Concerning Docket [Nos.l 475.476.477.478.479 fandl 480 Before This Court
(Doc. #482) filed July 15, 2019, which each contains frivolous factual allegations or legal
theories, the Court sanctions defendant in the total amount of $76,000.00. On or before
December 1, 2019, defendant shall pay this amount to the Clerk of the Court. If the Clerk
of the Court does not receive full payment of the sanctions by December 1, 2019, the Clerk

-25-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 26 of 27

shall collect any outstanding amount from defendant’s inmate trust account.
IT IS FURTHER ORDERED that defendant’s Motion For Leave To Proceed On Appeal
Without Prepayment Of Costs Or Fees (Doc. #485) filed October 21, 2019 is OVERRULED.
IT IS FURTHER ORDERED that absent objection filed by November 22, 2019, the
following filing restrictions will take effect on December 1, 2019:
If defendant wishes to file a document, he must file a motion that seeks leave
to do so with a copy of the document attached that he proposes to file. His
motion for leave and memorandum shall not exceed ten pages and no
Defendant’s motion for leave must
supplements will be permitted.
(1) address whether this Court or any other court has addressed directly or
indirectly any of the arguments presented in the document that he proposes to
file; (2) if this Court or another court has addressed any of the arguments,
attach a copy of the order that reflects the ruling; (3) explain why the proposed
document should not be construed as an unauthorized successive motion
under 28 U.S.C. Section 2255 and if construed as a Section 2255 motion why
he did not seek leave of the Tenth Circuit Court of Appeals to file the
document; and (4) explain why the proposed document should not be
construed as a challenge to the execution of his sentence under 28 U.S.C.
Section 2241 or the conditions of his confinement under Bivens v. Six
Unknown Agents of Fed. Bureau of Narcotics. 403 U.S. 388 (1971). The
government will not be required to respond to the motion for leave unless the
Court so orders. In addition, absent extraordinary circumstances, the Court
will summarily rule on all future motions as well as the amount of sanctions
for the filing of any frivolous documents. See Tenth Circuit Order (Doc.
#472) filed July 25, 2018 at 5 (“we decline to assist Akers in further wasting
judicial resources with extensive discussion”). The above restrictions do not
apply to documents filed on defendant’s behalf by a licensed attorney who is
admitted to practice in the District of Kansas.
IT IS FURTHER ORDERED that except as to the additional proposed filing
restrictions set forth in Section IX above, this Memorandum And Order is final and the
Court will summarily overrule objections or motions to reconsider on any of the issues
addressed above.

-26-

Case 2:04-cr-20089-KHV Document 486 Filed 11/08/19 Page 27 of 27

The Clerk is directed to forward a copy of this order to the Tenth Circuit Court of Appeals
and to the Office of the Federal Public Defender.
Dated this 8th day of November, 2019 at Kansas City, Kansas.
s/ Kathryn H. Vratil
KATHRYN H. VRATIL
United States District Judge

i

-27-

Appellate Case: 19-3254

Document: 010110361315

Date Filed: 06/15/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

June 15, 2020
Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,

No. 19-3254
(D.C. Nos. 2:04-CR-20089-KHV-1 &
2:09-CV-02206-KHV)
(D. Kan.)

v.

MONTGOMERY CARL AKERS,
Defendant - Appellant.

ORDER

Before LUCERO, BACHARACH, and MORITZ, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth fcircuit
C
J

FOR THE TENTH CIRCUIT

April 21, 2020
Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,

V\
No. 19-3254
(D.C. No. 2:04-CR-20089-KHV-1)
(D. Kan.)

v.

MONTGOMERY CARL AKERS,

\

Defendant - Appellant.
ORDER
Before LUCERO, BACHARACH, and MORITZ, Circuit Judges.
This matter is before the court on Appellant’s motion for extension of time to file
a petition for rehearing and/or rehearing en banc. The motion is granted. The petition, if
any, shall be filed by June 3, 2020. No further extensions will be granted.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

/

